No. ___________
In The

Supreme Court of the United States
CHARLES MICHAEL LEDFORD,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit
______________

APPENDIX TO
PETITION FOR WRIT OF CERTIORARI
______________
J. Edward Yeager, Jr.
Counsel of Record
ATTORNEY AT LAW
P. O. Box 1656
Cornelius, NC 28031
(704) 490-1518 – Telephone
(866) 805-6191 – Facsimile
yeager@ncappeals.net
Counsel for Petitioner
GibsonMoore Appellate Services, LLC
206 East Cary Street ♦ P.O. Box 1460 (23218) ♦ Richmond, VA
804-249-7770 ♦ www.gibsonmoore.net

23219

TABLE OF CONTENTS
Appendix

Page:

Order
U.S. Court of Appeals for the Fourth Circuit
entered January 21, 2021 .................................................................. Appendix A

USCA4 Appeal: 20-4202

Doc: 37

Filed: 01/21/2021

Pg: 1 of 4

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-4202
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
CHARLES MICHAEL LEDFORD,
Defendant - Appellant.

Appeal from the United States District Court for the Western District of North Carolina, at
Asheville. Martin K. Reidinger, Chief District Judge. (1:19-cr-00060-MR-WCM-3)
Submitted: January 19, 2021

Decided: January 21, 2021

Before AGEE, WYNN, and DIAZ, Circuit Judges.
Dismissed by unpublished per curiam opinion.
J. Edward Yeager, Jr., Cornelius, North Carolina, for Appellant. R. Andrew Murray,
United States Attorney, Charlotte, North Carolina, Amy E. Ray, Assistant United States
Attorney, OFFICE OF THE UNITED STATES ATTORNEY, Asheville, North Carolina,
for Appellee.
Unpublished opinions are not binding precedent in this circuit.

APPENDIX A

USCA4 Appeal: 20-4202

Doc: 37

Filed: 01/21/2021

Pg: 2 of 4

PER CURIAM:
Charles Michael Ledford pled guilty, pursuant a written plea agreement, to
conspiracy to distribute and to possess with intent to distribute methamphetamine, in
violation of 21 U.S.C. §§ 841(a)(1), (b)(1)(A), 846. He received a 324-month sentence.
On appeal, Ledford alleges that the district court erred in sentencing him under a higher
advisory Sentencing Guidelines range than contemplated under the plea agreement and that
counsel was ineffective in failing to object on this ground to the application of the two
sentencing enhancements that led to the calculation of the higher Guidelines range. The
Government asserts that Ledford’s first claim is barred by the appellate waiver in his plea
agreement and that his ineffective assistance of counsel claim is without merit. For the
reasons that follow, we dismiss this appeal.
It is well established that a defendant may waive the right to appeal if that waiver is
knowing and intelligent. See United States v. Blick, 408 F.3d 162, 169 (4th Cir. 2005).
When the Government seeks to enforce an appeal waiver and did not breach its obligations
under the plea agreement, we will enforce the waiver if the record establishes that: (1) the
defendant knowingly and intelligently waived his right to appeal; and (2) the issues raised
on appeal fall within the waiver’s scope. Id. at 168-69. Generally, if the district court fully
questions a defendant regarding the waiver of his right to appeal during the Fed. R. Crim.
P. 11 colloquy, the waiver is both valid and enforceable. See United States v. Johnson, 410
F.3d 137, 151 (4th Cir. 2005).
Even a valid waiver does not waive all appellate claims, however. Specifically, a
valid appeal waiver does not preclude a challenge to a sentence on the ground that it
2

USCA4 Appeal: 20-4202

Doc: 37

Filed: 01/21/2021

Pg: 3 of 4

exceeds the statutory maximum or is based on a constitutionally impermissible factor such
as race, arises from the denial of a motion to withdraw a guilty plea based on ineffective
assistance of counsel, or relates to claims concerning a violation of the Sixth Amendment
right to counsel in proceedings following the guilty plea. See id.; United States v. Craig,
985 F.2d 175, 178 (4th Cir. 1993).
In his plea agreement, Ledford waived all rights to contest his conviction and
sentence in any appeal or postconviction action, except claims for ineffective assistance of
counsel and prosecutorial misconduct. Ledford does not assert that his appellate waiver
was unknowing or involuntary, and we conclude that his claim that the district court erred
in imposing enhancements outside of those recommended by the parties in the plea
agreement—which is clearly a challenge to his sentence not based on the above-referenced
grounds—is barred by the appellate waiver.
Notably, Ledford’s ineffective assistance claim is not foreclosed by the appellate
waiver. However, we do not consider ineffective assistance claims on direct appeal
“[u]nless an attorney’s ineffectiveness conclusively appears on the face of the record.”
United States v. Faulls, 821 F.3d 502, 507-08 (4th Cir. 2016). Instead, such claims “should
be raised, if at all, in a 28 U.S.C. § 2255 motion.” Id. at 508. Because ineffectiveness of
counsel does not conclusively appear on the face of the record, we conclude that Ledford’s
ineffective assistance of counsel claim is not cognizable on direct appeal.

3

USCA4 Appeal: 20-4202

Doc: 37

Filed: 01/21/2021

Accordingly, we dismiss Ledford’s appeal.

Pg: 4 of 4

We dispense with oral argument

because the facts and legal contentions are adequately presented in the materials before this
court and argument would not aid the decisional process.
DISMISSED

4

